No. 20-1088

In the
Supreme Court of the United States
DAVID and AMY CARSON, as parents and next
friend of O.C., et al.
Petitioners,
v.
A. PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of
Education,
Respondent.
On Petition for Writ of Certiorari to the United States
Court of Appeals for the First Circuit
BRIEF AMICI CURIAE OF THE NATIONAL
LEGAL FOUNDATION, ILLINOIS FAMILY
INSTITUTE, AND THE FAMILY FOUNDATION
in Support of Petitioner
Steven W. Fitschen
James A. Davids
The National Legal
Foundation
524 Johnstown Road
Chesapeake, Va. 23322
David A. Bruce
205 Vierling Dr.
Silver Spring, Md. 20904

Frederick W. Claybrook, Jr.

Counsel of Record

Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
rick@claybrooklaw.com

i

Table of Contents
Table of Authorities .................................................... ii
INTERESTS OF AMICI CURIAE.............................. 1
SUMMARY OF THE ARGUMENT ........................... 2
ARGUMENT ............................................................... 2
I.

Mitchell v. Helms Began This Court’s Retreat
from Disqualifying Religious Institutions
from Receipt of Governmental Benefits Due
to Their Religious Status and Exercise .............. 4

II. This Court Rejects Discrimination Against
Schools Because of Their Religious Character
(Status) ................................................................. 6
III. The First Circuit’s Decision Conflicts with
That of the Tenth ................................................. 9
CONCLUSION.......................................................... 11

ii
Table of Authorities
Cases
Carson v. Makin, 979 F.3d 21 (1st Cir. 2020) ... 7-8, 10
Colorado Christian University v. Weaver,
534 F.3d 1245 (10th Cir. 2008) ...................... 2, 9-10
Employment Div. v. Smith, 494 U.S. 872 (1990) ..... 10
Espinoza v. Montana Department of Revenue,
140 S. Ct. 2246 (2020) .................................. 2, 5, 7-8
Lamb’s Chapel v. Center Moriches Union
Free School Dist., 508 U.S. 384 (1993) ................. 4-5
Mitchell v. Helms, 530 U.S. 793 (2000) ................... 4-6
Rosenberger v. Rector and Visitors of Univ. of Va.,
515 U.S. 819 (1995) ................................................. 4
Trinity Lutheran Church of Columbia, Inc.
v. Comer, 137 S. Ct. 2012 (2017)............... 2, 6-8, 11
Widmar v. Vincent, 454 U.S. 263 (1981) ................. 4-5
Statutes
Me. Stat. tit. 20-A § 2951 (2) ...................................... 8
Other Authorities
James A. Davids, Pounding a Stake in the Heart of
the Invidiously Discriminatory ”Pervasively
Sectarian” Test, 7 Ave Maria L. Rev. 59 (2008) ..... 3

iii
Michael W. McConnell, Religious Freedom at a
Crossroads, 59 U. Chi. L. Rev. 115 (1992)........... 2-3

1

INTERESTS OF AMICI CURIAE1
The National Legal Foundation (“NLF”) is
a public interest law firm dedicated to the defense of
First Amendment liberties and the restoration of the
moral and religious foundation on which America
was built. The NLF and its donors and supporters,
including those in Maine, seek to ensure that free
speech and free exercise of religion are protected in
all places.
The Illinois Family Institute (IFI) is a
nonprofit educational and lobbying organization
based in Tinley Park, Illinois, that exists to advance
life, faith, family, and religious freedom in public
policy and culture from a Christian worldview. A
core value of IFI is to uphold religious freedom and
conscience
rights
for
all
individuals
and
organizations.
The Family Foundation (TFF) is a Virginia
non-partisan, non-profit organization committed to
promoting strong family values and defending the
sanctity of human life in Virginia through its citizen
advocacy and education. TFF serves as the largest
pro-family advocacy organization in Virginia, and its
interest in this case is derived directly from its
members throughout Virginia who seek to advance a

The parties were provided appropriate notice and have
consented to the filing of this brief in writing. No counsel
for any party authored this brief in whole or in part. No
person or entity other than Amici made a monetary
contribution intended to fund the preparation or
submission of this brief.
1

2
culture in which children are valued, religious liberty
thrives, and marriage and families flourish.
SUMMARY OF THE ARGUMENT
This Court should grant the petition to settle
the status/use question it left for future consideration
in Trinity Lutheran Church of Columbia, Inc. v.
Comer, 137 S. Ct. 2012 (2017), and Espinoza v.
Montana Department of Revenue, 140 S. Ct. 2246
(2020).
Settling this dispute will continue to
harmonize this Court’s Religion Clauses precedent
by rejecting those cases that sowed confusion by
using, in effect, the “pervasively sectarian” status of
the ultimate recipient of the benefit and settle the
split on this important issue between the First
Circuit’s decision in this case and the Tenth Circuit’s
decision in Colorado Christian University v. Weaver,
534 F.3d 1245 (10th Cir. 2008).2
ARGUMENT
Thirty years ago, Professor Michael McConnell
described
this
Court’s
Religion
Clauses
jurisprudence, including that related to government
benefits that directly or indirectly benefitted schools
operated by religious organizations, as a “mess”:
With [Religion Clauses] doctrine in such
chaos, the Warren and Burger Courts
Although the Circuit split between the present case and
Colorado Christian University was also discussed in the
Petition for Writ of Certiorari, this Amici Brief goes deeper into
the conflict, it discusses the not-yet-buried pervasively
sectarian test, and it discusses the proper standard of review to
apply to future cases.
2

3
were free to reach almost any result in
almost any case. Thus, as of today, it is
constitutional for a state to hire a
Presbyterian minister to lead the
legislature in daily prayers, but
unconstitutional for a state to set aside
a moment of silence in the schools for
children to pray if they want to. . . . . It
is constitutional for the government to
give money to religiously-affiliated
organizations to teach adolescents about
proper sexual behavior, but not to teach
them science or history. It is
constitutional for the government to
provide religious school pupils with
books, but not with maps; with bus
rides to religious schools, but not from
school to a museum on a field trip; with
cash to pay for state-mandated
standardized tests, but not to pay for
safety-related maintenance. It is a
mess.
Michael W. McConnell, Religious Freedom at a
Crossroads, 59 U. Chi. L. Rev. 115, 119–20 (1992)
(footnotes omitted).
The main reason for this confusion was this
Court’s focus on whether the ultimate recipient of the
government benefit was “pervasively sectarian,” i.e.,
whether the school taught its religion in a consistent,
exclusive, and thoroughgoing way, which is nothing
more or less than the free exercise of religion. See
James A. Davids, Pounding a Stake in the Heart of
the
Invidiously
Discriminatory
“Pervasively
Sectarian” Test, 7 Ave Maria L. Rev. 59 (2008)

4
(chronicling the Court’s chaotic Establishment
Clause jurisprudence from 1971-2007).
I.

Mitchell v. Helms Began This Court’s
Retreat from Disqualifying Religious
Institutions
from
Receipt
of
Governmental Benefits Due to Their
Religious Status and Exercise

This Court began to back away from its
“pervasively sectarian” cases in Mitchell v. Helms,
530 U.S. 793 (2000). Justice Thomas in his plurality
opinion (joined by Chief Justice Rehnquist, and
Justices Kennedy and Scalia) expressly repudiated
the pervasively sectarian test. He noted that use of
that test demonstrates “special hostility for those
who take their religion seriously, who think that
their religion should affect the whole of their lives, or
who make the mistake of being effective in
transmitting their views to children.” Id. at 827-28
(plurality). In other words, the seriously religious
schools were being discriminated against because of
their sincere exercise of religion. Justice Thomas
further observed that the courts are neither equipped
nor authorized to “troll[ ] through a person’s or
institution’s religious beliefs,” as application of the
pervasively sectarian test requires.
Id. at 828
(plurality). Noting the tension with this Court’s
decisions in Rosenberger, Lamb’s Chapel, and
Widmar, Justice Thomas wrote that the use of the
pervasively sectarian test collided with “our decisions
that
have
prohibited
governments
from
discriminating in the distribution of public benefits
based upon religious status or sincerity.”
Id.
(plurality) (citing Rosenberger v. Rector and Visitors
of Univ. of Va., 515 U.S. 819 (1995); Lamb’s Chapel v.

5
Center Moriches Union Free School Dist., 508 U.S.
384 (1993); Widmar v. Vincent, 454 U.S. 263 (1981)).
Finally, Justice Thomas discussed briefly the
deplorable history that undergirds the pervasively
sectarian test. Id. at 828-29 (plurality). He noted,
for instance, the anti-Catholic bias that led to the
near passage of the Blaine Amendment, which would
have deprived public aid to sectarian (“code” for
Catholic) schools.3 Justice Thomas concluded, “In
short, nothing in the Establishment Clause requires
the exclusion of pervasively sectarian schools from
otherwise permissible aid programs, and other
doctrines of this Court bar it. This doctrine, born of
bigotry, should be buried now.” Id. at 829 (plurality).
Justice O’Connor, with Justice Breyer,
concurred in the judgment in Mitchell, but they did
not entirely jettison the pervasively sectarian test.
Justice O’Connor still required an analysis of
whether a neutral benefit would be used for purposes
such as “religious indoctrination.” Id. at 850-56
(O’Connor, J., concurring in judgment).
Justice
Souter in dissent argued that religious instruction in
a pervasively sectarian school always pervaded the
curriculum and so disqualified the school from
Id. Justice Thomas pointed out that Justice Souter
almost exclusively referred to Catholic schools in the
portion of his dissent devoted to the pervasively sectarian
test, exemplifying the Court’s almost exclusive application
of the test to Catholic schools. Id. at 829 (plurality).
Justice Alito provided a more detailed discussion on the
anti-Catholic bias of the Blaine Amendments in his
concurrence in Espinoza v. Montana Department of
Revenue, ___ U.S. ___, 140 S. Ct. 2246, 2267 (Alito, J.,
concurring).
3

6
governmental assistance, i.e., simply by virtue of its
exercise of its religion:
[W]e have concluded that religious
teaching in such schools is at the core of
the instructors’ individual and personal
obligations,
and
that
individual
religious teachers will teach religiously.
. . . [Accordingly,] as religious teaching
cannot be separated from secular
education in such schools or by such
teachers, we have concluded that direct
government subsidies to such schools
are prohibited because they will
inevitably and impermissibly support
religious indoctrination.
530 U.S. at 886–87 (Souter, J., dissenting).
II.

This
Court
Rejects
Discrimination
Against Schools Because of Their
Religious Character (Status)

Two decades later, in Trinity Lutheran
Church, this Court firmly rejected Justice Souter’s
reasoning in his Mitchell dissent. Instead of the
Establishment Clause forbidding an evenhanded
application of governmental benefits to include
religious organizations, the Court held that the Free
Exercise Clause prohibits them from being
discriminated against solely because of their
religious status. Trinity Lutheran Church of
Columbia, Inc v. Comey, 582 U.S. ___, 137 S. Ct.
2012 (2017). The majority opinion did not have to
reach, and explicitly reserved, the issue presented by
this petition: whether the Free Exercise Clause also

7
prohibits denial of a governmental benefit because of
an organization’s practice of religion. Id. at 2024 n.3.
Justice Gorsuch, joined by Justice Thomas,
expressed the opinion that discrimination because of
the exercise of religion is exactly what the Free
Exercise Clause reaches. Id. at 2025-2026 (Gorsuch,
J., concurring).
Similarly, in Espinoza this Court again found
that a state denying participation by religious
schools in a generally applicable scholarship program
because of their religious status violated the Free
Exercise Clause, but reserved the issue of
discrimination based on religious practice. 140 S. Ct.
at 2256. And Justice Gorsuch again expressed that
discrimination on either account violates the Free
Exercise Clause: “Calling it discrimination on the
basis of religious status or religious activity makes
no difference: It is unconstitutional all the same.” Id.
at 2278 (Gorsuch, J., concurring).
We agree with Petitioners that the present
case, involving the eligibility of a religious school for
receipt of public funds (tuition) through the
independent choice of parents, directly presents the
issue of whether discrimination based on religious
activity (and therefore use of the public funds) can be
tolerated under the Free Exercise Clause. In fact,
the First Circuit, with Justice Souter sitting on the
panel, distinguished Trinity Lutheran and Espinoza
on exactly that basis, with the status/exercise (use)
distinction forming the ratio decidendi. Carson, 979
F.3d 21, 40-45 (1st Cir. 2020).
Because the statute at issue requires private
schools to qualify for scholarship money, even though

8
received indirectly through parental choice, to be
“nonsectarian in accordance with the First
Amendment” (Me. Stat. tit. 20-A § 2951 (2)), it
appears to be a status-based restriction, falling
under the direct holdings of Trinity Lutheran and
Espinoza.
But the Commissioner of Maine’s
Department
of
Education
in
answering
interrogatories interpreted the quoted phrase, in
essence, to adopt this Court’s earlier, “pervasively
sectarian” case law, stating that
the Department considers a sectarian
school to be one that is associated with a
particular faith or belief system and
which, in addition to teaching academic
subjects, promotes the faith or belief
system with which it is associated
and/or presents the material taught
through the lens of this faith. While
affiliation or association with a church
or religious institution is one potential
indicator of a sectarian school, it is not
dispositive. The Department’s focus is
on what the school teaches through its
curriculum and related activities, and
how the material is presented.
Carson, 979 F.3d at 38 (emphasis in original). That
is, according to the Commissioner, eligibility is
directly tied to how a sectarian school practices its
faith or belief system. A religious school is eligible if
it doesn’t teach religion or teach through the “lens of
faith,” but, presumably, if a religious school
introduces a math course by instructing students
that math reflects the orderliness of God’s creation or
if it teaches in a civics class that the separation of

9
powers in the Constitution is consistent with the
Christian doctrine of the Fall and not placing too
much power in one or a few individuals, then that
school is ineligible.
This Court should accept this petition to
clarify that disqualifying an organization from an
otherwise generally applicable government benefit
because of its practice of its religion violates the Free
Exercise Clause. This Court’s case law should once
again make clear that free exercise of religion is
protected under the Free Exercise Clause, rather
than discriminated against. This result is also
commanded because courts would otherwise be asked
to determine when religious exercise becomes too
“pervasive” to be treated like any other organization,
and such an inquiry would automatically entangle
the courts in the realm of theology, which the First
Amendment forbids. That is a key point made by the
Tenth Circuit in Colorado Christian University.
III.

The First Circuit’s Decision Conflicts
with That of the Tenth

Colorado Christian University involved a state
scholarship program that granted scholarships to
college students who attended in-state schools.
Colorado Christian University v. Weaver, 534 F.3d
1245 (10th Cir. 2015). To be eligible for this program,
a Colorado college could not be a “pervasively
sectarian” school as defined by a Colorado statute.
Colorado determined two religious schools—Regis
University (a Roman Catholic college run by the
Jesuits) and the University of Denver (a Methodist
institution)—to be eligible because not pervasively
sectarian, but Colorado Christian University not

10
eligible because it was. Id. at 1258. To make that
determination, Colorado investigated CCU’s theology
courses syllabi and the religious beliefs of CCU’s
faculty, students, and trustees. After completing this
investigation, the Commission found dispositive that
CCU’s theology courses impermissibly “tend[ed] to
indoctrinate or proselytize,” that CCU’s trustees
were limited to one religion (Christianity), and that
CCU required some of its students to attend chapel.
Id. at 1253. Then-Judge McConnell for the Tenth
Circuit ruled that this deep dive into how religious
schools put their beliefs into practice was
unconstitutional, as it required the state to make
religious judgments and decide winners and losers
among sectarian organizations. Id. at 1258. This
necessarily entailed, Judge McConnell continued,
“discrimination ‘on the basis of religious views or
religious status’ and is subject to heightened
constitutional scrutiny.” Id. (quoting Employment
Div. v. Smith, 494 U.S. 872, 877 (1990).
Finally, this Court should grant the petition
and decide this case in order to determine the level of
review to apply in “use” cases. The First Circuit in
Carson applied the rational basis test to the
Petitioners’ equal protection argument regarding the
unequal treatment between sectarian and
pervasively sectarian schools. 979 F. 3d at 46-47. The
Tenth Circuit in Colorado Christian University,
however, thought the equal protection challenge was
subject to “heightened scrutiny” based on Locke v.
Davey, 540 U.S. 712 (2004). See 534 F.3d at 1267.
“Heightened scrutiny,” of course, is less exact than
intermediate review or strict scrutiny and, more
importantly, discrimination between nominally
religious institutions and seriously religious

11
institutions is still discrimination based on religion.
Since a “penalty on the free exercise of religion . . .
triggers the most exacting scrutiny,” Trinity
Lutheran, 137 S. Ct. at 2021, we respectfully suggest
that the Court use the same review standard (strict
scrutiny) for both “status” and “use” cases. Only this
Court can resolve this split between the First and
Tenth Circuits.
CONCLUSION
This Court should grant the petition and
reverse.
Respectfully submitted,
This 11th day of March, 2021,
/s/ Frederick W. Claybrook, Jr.
Frederick W. Claybrook, Jr.
Counsel of Record
Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
Rick@Claybrooklaw.com
Steven W. Fitschen
James A. Davids
National Legal Foundation
524 Johnstown Road
Chesapeake, Va. 23322
David A. Bruce
205 Vierling Dr.
Silver Spring, Md. 20904

